 

 

IN THE

Supreme Court of the United States

 

GUERLY ALEXIS,
Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.

 

PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

 

CERTIFICATE OF SERVICE

I CERTIFY, pursuant to Supreme Court Rule 29.5, that on this 1st day of
September 2021, copies of the Petition for Writ of Certiorari and the Motion for Leave
to Proceed In Forma Pauperis were served on all parties required to be served: to the
Office of the Solicitor General, Room 5712, Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C., 20530-0001, Tel. (202) 633-2201; to the Office of
the United States Attorney, Robert Davies, 21 East Garden Street, Ste. 400,
Pensacola, FL 32052; and to Petitioner Mr. Guerly Alexis, Reg. No. 83156-004, FCI

Coleman Medium, PO Box 1032, Coleman FL 33521.
Respectfully submitted by,

RANDOLPH P. MURRELL
FEDERAL PUBLIC DEFENDER

Nussr Salle

*MEGAN SAJLLANT
ASSISTA: FEDERAL PUBLIC DEFENDER
Florida Bar No. 0042092

101 SE 2nd Street, Suite 112

Gainesville, Florida 32601

Telephone: (352) 373-5823

FAX: (352) 373-7644

Attorney for Petitioner

  
 

* Counsel of Record
